Appendix A
Decision of the Tenth Circuit

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

September 28, 2020

TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ANTHONY RAY YBARRA,

No. 19-2142
(D.C. No. 1:18-CR-03316-JCH-1)
(D.N.M.)

Defendant - Appellant.

ORDER AND JUDGMENT *

Before TYMKOVICH, Chief Judge, BRISCOE, and MURPHY, Circuit Judges.

After examining the parties’ briefs and the appellate record, this panel
determined unanimously that oral argument would not materially assist in the
determination of this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G).
Accordingly, on August 17, 2020, this court entered an order submitting the
appeal without oral argument.

*

This order and judgment is not binding precedent except under the
doctrines of law of the case, res judicata, and collateral estoppel. It may be cited,
however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th
Cir. R. 32.1.

1a

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 2

I. Background
On April 2, 2019, Defendant Anthony Ybarra pleaded guilty to being a
felon in possession of firearms and ammunition, in violation of 18 U.S.C.
§ 922(g)(1). The Armed Career Criminal Act (“ACCA”) requires a district court
to sentence a defendant convicted under § 922(g) to a minimum term of fifteen
years if he has three prior convictions for a “violent felony” or a “serious drug
offense.” 18 U.S.C. § 924(e). The United States Sentencing Guidelines
(“USSG”) also set minimum offense levels for such defendants. See USSG
§ 4B1.4.
Ybarra’s Presentence Investigation Report (“PSR”) noted that Ybarra had
the following prior New Mexico convictions: residential burglary, aggravated
battery against a household member, and aggravated assault with a deadly
weapon. Based on these state convictions, the PSR concluded Ybarra qualified as
an armed career criminal under the ACCA and, thus, his offense level under the
USSG was thirty-four. See USSG § 4B1.4(b)(3)(A). The PSR applied a
three-level downward adjustment for acceptance of responsibility, resulting in a
total offense level of thirty-one. Combined with Ybarra’s criminal-history
category of VI, this offense level led to an advisory sentencing range of 188 to
235 months. The district court adopted the calculation in the PSR and sentenced

-2-

2a

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 3

Ybarra to 188 months’ imprisonment, the bottom of the ACCA-enhanced
guidelines range.
Ybarra argues his sentence was improperly enhanced because he is not
subject to the provisions of the ACCA. Specifically, he asserts his prior New
Mexico convictions for aggravated assault with a deadly weapon and aggravated
battery on a household member are not violent felonies because neither crime
“has as an element the use, attempted use, or threatened use of physical force
against the person of another.” 18 U.S.C. § 924(e)(2)(B)(i). Exercising
jurisdiction under 18 U.S.C. § 3742(a)(1) and 28 U.S.C. § 1291, we affirm
Ybarra’s sentence.
II. Discussion
A. Standard of Review
The relevant provision of the ACCA defines a “violent felony” as “any
crime punishable by imprisonment for a term exceeding one year . . . that has as
an element the use, attempted use, or threatened use of physical force against the
person of another.” 18 U.S.C. § 924(e)(2)(B)(i). The Supreme Court has held
that “the phrase ‘physical force’ means violent force—that is, force capable of
causing physical pain or injury to another person.” Johnson v. United States, 559
U.S. 133, 140 (2010). “To determine if a prior conviction qualifies as a violent
felony under the ACCA, we apply the categorical approach, focusing on the

-3-

3a

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 4

elements of the crime of conviction, not the underlying facts.” United States v.
Harris, 844 F.3d 1260, 1263 (10th Cir. 2017). “Whether a prior conviction
satisfies the ACCA’s violent felony definition is a legal question we review de
novo.” United States v. Titties, 852 F.3d 1257, 1263 (10th Cir. 2017).
B. Aggravated Battery Against a Household Member
Under New Mexico law, aggravated battery against a household member
“consists of the unlawful touching or application of force to the person of a
household member with the intent to injure that person.” N.M. Stat. Ann.
§ 30-3-16. Aggravated battery is a felony if it “is committed: (1) by inflicting
great bodily harm; (2) with a deadly weapon; (3) by strangulation or suffocation;
or (4) in any manner whereby great bodily harm or death can be inflicted.” Id.
§ 30-3-16(C). Ybarra was convicted of the felony version of the crime. He
argues the crime does not have as an element the violent physical force required
under the ACCA because it focuses on the resulting harm to the victim, not the
force behind the unlawful touching. According to Ybarra, the crime can be
committed by any unlawful touching that may result in death or serious injury.
Ybarra’s argument is foreclosed by this court’s recent decision in United
States v. Manzanares, 956 F.3d 1220 (10th Cir. 2020). In Manzanares, we held
that the New Mexico crime of aggravated battery is a violent felony for purposes
of the ACCA, rejecting the identical argument Ybarra makes here, i.e., that the

-4-

4a

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 5

degree of force required cannot be measured in terms of the resulting harm. Id. at
1228. The holding in Manzanares was compelled by the Supreme Court’s
decision in United States v. Castleman, 572 U.S. 157, 169 (2014), a case in which
the Court held that “knowing or intentional causation of bodily injury necessarily
involves the use of physical force.” See also United States v. Ontiveros, 875 F.3d
533, 536 (10th Cir. 2017) (noting the Castleman Court “specifically rejected the
contention that ‘one can cause bodily injury without the use of physical force’”).
Manzanares also relied on United States v. Ontiveros, a post-Castleman case in
which this court “concluded that Colorado second-degree assault is a crime of
violence, even though the crime’s elements ‘focus on the result of the conduct
(serious bodily injury), not the conduct itself.’” Manzanares, 956 F.3d at 1228.
Because he was convicted of the felony version of aggravated battery
against a household member, Ybarra, at a minimum, unlawfully touched another
person with an “intent to injure,” and in a “manner whereby great bodily harm or
death can be inflicted.” N.M. Stat. Ann. § 30-3-16(A), (C). Under this court’s
holdings in Ontiveros and Manzanares, and the Supreme Court’s holding in
Castleman, Ybarra’s crime categorically involved the degree of physical force
necessary to satisfy the ACCA’s definition of violent felony.

-5-

5a

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 6

C. Aggravated Assault with a Deadly Weapon
Ybarra next argues his New Mexico conviction for aggravated assault with
a deadly weapon is not a predicate offense for purposes of the ACCA because the
crime does not have as an element the use, attempted use, or threatened use of
physical force against the person of another. This argument is also foreclosed by
this court’s precedent.
Aggravated assault with a deadly weapon under N.M. Stat. Ann.
§ 30-3-2(A) is defined as “unlawfully assaulting or striking at another with a
deadly weapon.” Simple assault can be committed in one of three ways: (1)
attempting to commit a battery upon the person of another, (2) engaging in any
unlawful act, threat, or menacing conduct which causes another person to
reasonably believe he is in danger of receiving an immediate battery, or (3) using
insulting language toward another impugning his honor, delicacy or reputation.
N.M. Stat. Ann. § 30-3-1. In United States v. Maldonado-Palma, this court held
that all three methods of violating N.M. Stat. Ann. § 30-3-2(A) are categorically
crimes of violence for purposes of the Sentencing Guidelines because the “key
element” of the crime of aggravated assault with a deadly weapon, regardless of
how the assault is committed, is the use of a deadly weapon. 1 839 F.3d 1244,

1

Although Maldonado-Palma involved the definition of crime-of-violence
for purposes of the Sentencing Guidelines, we look to the Guidelines for guidance
(continued...)
-6-

6a

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 7

1250 (10th Cir. 2016). In reaching this conclusion, Maldonado-Palma addressed
and rejected the argument made here by Ybarra that a defendant can be convicted
of aggravated assault with a deadly weapon if he simply possesses the weapon
while using insulting language toward another person. Id. And, in United States
v. Ramon Silva, this court rejected Ybarra’s alternative argument that the crime is
not a violent felony because it does not require “proof of a specific intent to
assault the victim, or of a specific intent to injure or even frighten the victim.”
608 F.3d 663, 674 (10th Cir. 2010), abrogated on other grounds by Mathis v.
United States, 136 S. Ct. 2243 (2016); see also Manzanares, 956 F.3d at 1227
(rejecting the argument, also made here by Ybarra, that the holding in Ramon
Silva is contrary to New Mexico law).
Recognizing that Maldonado-Palma compels the conclusion his New
Mexico conviction for aggravated assault with a deadly weapon is a predicate
offense under the ACCA, Ybarra asks us to “reexamine” Maldonado-Palma. This
panel, however, is “bound by the precedent of prior panels absent en banc
reconsideration or a superseding contrary decision by the Supreme Court.”
Leatherwood v. Allbaugh, 861 F.3d 1034, 1042 n.6 (10th Cir. 2017) (quotation

1

(...continued)
“in determining whether a conviction qualifies as a violent felony” because of
“the similarity in language between the ACCA and [Guidelines].” United States
v. Ramon Silva, 608 F.3d 663, 671 (10th Cir. 2010) (quotation omitted),
abrogated on other grounds by Mathis v. United States, 136 S. Ct. 2243 (2016).
-7-

7a

Appellate Case: 19-2142

Document: 010110414426

Date Filed: 09/28/2020

Page: 8

omitted). Accordingly, the district court did not err when it enhanced Ybarra’s
sentence based on his conviction for aggravated assault with a deadly weapon.
III. Conclusion
Ybarra’s sentence is affirmed.
ENTERED FOR THE COURT

Michael R. Murphy
Circuit Judge

-8-

8a

Appendix B
District Court’s Oral Overruling of Sentencing Objections

5
1

So it's the defense's position that by looking to the

2

resulting harm, the New Mexico statute does not the

3

requirements to be a categorical violent felony.

4
5
6

THE COURT:

Very well.

Mr. Trembley, the

Government's reply?
MR. TREMBLEY:

Your Honor, I responded to that in the

7

Government's response, which is Document 30.

8

Page 4 addresses the issues raised by the Defendant.

9

Specifically,

However, I think the case law is pretty clear.

10

Although it's not binding on this Court, per se, there is an

11

unpublished Tenth Circuit case that specifically addresses this

12

issue in Pacheco.

13

that are published that have addressed a very similar, almost

14

identical Kansas statute for aggravated battery, finding that

15

it necessarily contains an element of the use or threatened use

16

of physical force.

There's also similar Tenth Circuit cases

17

In addition, courts in this Circuit, specifically in

18

United States v. Foltz, have thoroughly briefed this issue and

19

made the exact same finding that the Tench Circuit did as to

20

this statute.

21

violent felony under the Armed Career Criminal, and that this

22

Defendant does qualify for enhanced punishment under 924(e).

So I'd ask that the Court find that it is a

23

THE COURT:

24

The Court will adopt the Probation and Government

25

Thank you.

position with reference to Objection No. 2.

The Defendant has

USA v. Ybarra
18-cr-3316

Sentencing Hearing
8-12-2019
9a

6
1

conceded that Objection No. 1 is not meritorious.

2

based on the Court's rejection, the denial of the objections by

3

the Defendant, the Court adopts the Presentence Report without

4

change and finds that the Defendant's advisory guideline range

5

is as set out in the Presentence Report.

6

Therefore,

His total Offense Level is 31, Criminal History

7

Category VI, and under the sentencing table, that produces an

8

advisory sentencing range of 188 to 235 months.

9

Comment on sentencing, Mr. Trembley?

10

MR. TREMBLEY:

Yes, Your Honor.

I'd ask that the

11

Court impose a guideline range.

12

detailed in Government's Document 30, the Response and

13

Sentencing Memorandum, but specifically, the facts of this case

14

are that the Defendant was found apparently intoxicated.

15

think that's a logical conclusion from the things that the

16

officers found and the state that they found the Defendant in.

17

He was passed out in a vehicle with a stolen trailer attached.

18

He was unresponsive to officers even as they spoke to each

19

other through his open windows.

20

arms reach of him, in addition to another weapon within the

21

vehicle.

22

The crux of my argument is

I

They observed a shotgun within

He was arrested on an outstanding felony warrant, and

23

when they inventoried the vehicle, they found a significant

24

amount of ammunition.

25

possession, and also admitted that -- and the amount, I
USA v. Ybarra
18-cr-3316

The Defendant admitted to its

Sentencing Hearing
8-12-2019

